August 25, 2014


MEMORANDUM FOR:                    DAVID E. WILLIAMS
                                   VICE PRESIDENT, NETWORK OPERATIONS

                                   SUSAN M. BROWNELL
                                   VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                              Robert J. Batta
                                   Deputy Assistant Inspector General
                                    for Mission Operations

SUBJECT:                           Management Alert – Missing Leased Trailers in the
                                   Northeast Area (Report Number NO-MA-14-004)

This management alert presents our concerns with Missing Leased Trailers in the
Northeast Area (Project Number 14XG025NO000). The issue came to our attention
during our ongoing project, Procurement and Use of Common Fleet Trailers – Northeast
Area (Project Number 14XG025NO001).1

If you have any questions or need additional information, please contact Jody Troxclair,
deputy director, Network Processing and Transportation, at 404-507-8312, or me at
703-248-2100.

Attachment

cc: Richard P. Uluski
    Corporate Audit and Response Management




1
  The title of the initial project was Procurement and Use of Common Fleet Trailers – Northeast Area (Project Number
14XG025NO001). We changed the title to Missing Leased Trailers in the Northeast Area in order to issue this
management alert. A new project number (14XG025NO000) was initiated to continue the ongoing Northeast Area
leased trailer work.
Missing Leased Trailers in the Northeast Area                                                      NO-MA-14-004



Introduction

The purpose of this alert is to bring to your attention the need for the U.S. Postal
Service to immediately inventory and account for its leased trailers in the Northeast
Area. We are issuing this alert due to the urgency associated with protecting leased
trailers to avoid unnecessary lease and residual value expenses for lost trailers,
especially in light of the Postal Service’s financial constraints.

During the course of our project announced in March 2014, Procurement and Use of
Common Fleet Trailers – Northeast Area (Project Number 14XG025NO001), we
became aware of 35 trailers from the New Jersey Network Distribution Center (NDC) in
the Northeast Area that could not be located. Additionally, the Postal Service could not
locate any record that they received these trailers from the leasing company even
though the trailers were identified at some point in their manual tracking processes.

The U.S. Postal Service Office of Inspector General (OIG) has been expressing concern
about the Postal Service’s controls over leased trailers since 2001. The OIG has issued
over 19 reports covering leased trailers from March 30, 2001, through September 28,
2009. The reports identified the need for a comprehensive process to routinely identify
trailer needs and return unneeded trailers to the leasing contractor; use leased trailers
only to move mail and equipment; fully use the satellite-tracking system and tracking
devices to locate leased trailers, and safeguard trailers in secured locations. While
Postal Service management has taken action in the past to periodically identify and
return unused trailers, it has not established an effective inventory system to record and
track trailers or to ensure local facilities routinely identify and return unused trailers. Due
to our prior findings, continued concerns, and the expense associated with the missing
leased trailers of $287,374,2 we referred this matter to the OIG’s Office of
Investigations.

Owned and leased trailers are one of the most cost-effective ways to move large
volumes of mail and related equipment. The Postal Service spent more than $39
million3 in fiscal year (FY) 2013 for leased trailers.4 Today, about 17 trailer suppliers
provide more than 10,000 leased trailers nationally to the Postal Service. Currently, the
Postal Service does not have a policy or an inventory system for its leased trailers.




2
  This is the total monetary impacts amount, which includes unnecessary lease payments of $249,454 and $37,920 in
residual value payments.
3
  The average lease cost for a single trailer is $10.02 per day. The annual lease cost for a single trailer would be
$3,656.67 ($10.02 x 365 days = $3,656.67).
4
  The single national contractor left the trailer leasing industry in June 2012 when the national contract expired. These
National Trailer Lease trailers were sold to two of the companies currently leasing trailers to the Postal Service and
they are presently in use in its operations.
                                                               1
Missing Leased Trailers in the Northeast Area                                                    NO-MA-14-004



In 2011, the Postal Service established the Delivering Results, Innovation, Value, and
Efficiency (DRIVE) initiative.5 As part of Initiative 1, Optimize Network Operations, the
Postal Service established goals for reducing its trailer fleet by 35 percent.6 As a result,
plants in the Northeast Area began assessing leased trailer inventory and trailer
requirements. During this inventory process, the New Jersey NDC performed an
inventory of all trailers on record as having been received to account for them and
identify their location. Unfortunately, they could not account for the 35 leased trailers.
They were initially determined to be missing and after an extensive search for these
trailers, they were subsequently classified as lost.

Conclusion

We confirmed that Postal Service officials in the Northeast Area were unable to account
for 35 trailers and could not provide documentation of ever receiving the trailers from
the leasing company. The Postal Service continued paying lease costs of $249,454 for
the trailers for 2 years (October 1, 2011 to September 30, 2013),7 even though it could
not validate their location or use during that period. We confirmed that New Jersey NDC
and Northeast Area officials searched for the missing trailers,8 and the search did not
reveal any records of trailer movements. As a result, the Postal Service stopped the
monthly lease payments in October 2013 and paid the trailer supplier $37,920 for the
residual value9 of the 35 trailers. They received the titles in April 2014 for the lost
trailers.

We performed our own analysis of the data for the 35 missing trailers in the
Transportation Information Management Evaluation System (TIMES)10 and Surface
Visibility (SV)11 systems, and confirmed no record of trailer movements or use in Postal
Service operations.

Officials were unable to account for these trailers because:

   The Postal Service does not have an adequate process to document that leased
    trailers have been delivered and accepted;


5
  The DRIVE initiative is a management goal to improve business strategy development and execution, focusing on a
portfolio of strategic initiatives to meet ambitious performance and financial goals, including optimization of its
network.
6
  The Postal Service originally set October 2013 as the goal for reducing leased trailers by 35 percent, but it did not
meet that goal and extended the date to the end of FY 2014. The Postal Service has acknowledged that it might need
a further extension into FY 2015.
7
  The U. S. Postal Service paid the lease costs for the 35 trailers from October 1, 2011, to September 30, 2013. The
cost of the lease is $7,127 for one trailer for two years.
8
  The New Jersey NDC and Northeast Area officials used the Transportation Information Management Evaluation
System (TIMES) to try to identify the last known trailer movement date.
9
  The residual value of the trailers is defined as the depreciated value of the trailers.
10
   TIMES is a web-based application that enables dock clerks to collect data about the arrival and departure of
surface transportation of mail and to communicate that information to other processing facilities.
11
   SV captures real time data during surface transportation of mail at the handling unit, container, and trailer level
through the use of bar codes and wireless handheld scanners within Postal Service facilities. SV data feeds into
TIMES.


                                                           2
Missing Leased Trailers in the Northeast Area                                               NO-MA-14-004



    The Postal Service does not have an inventory system for leased trailers or a
     process to periodically validate the number of leased trailers on hand;

    The Postal Service is sometimes inconsistently labeling trailers and incorrectly
     entering trailer identification numbers or temporary identification numbers12 into SV
     and TIMES, resulting in incomplete and inconsistent data needed for tracking; and

    The missing trailers did not have satellite-tracking devices so that area and plant
     managers could track them.

During our review, we determined that Postal Service Headquarters’ management
intends to consolidate leased trailer information in a central database for integration with
other systems for better tracking and tracing of leased trailer inventory. Integration
relates to the Postal Service's systems – SEAM (Solution for Enterprise Asset
Management) and GPS (Global Positioning System). However, this effort is still in the
planning phase.

Because the Postal Service was unable to locate the 35 missing trailers or show details
on trailer utilization, we estimate the Postal Service unnecessarily paid $124,72713
annually in leasing costs, or $249,454 over 2 years. In addition, the Postal Service
unnecessarily paid an additional $37,920 in damages to the supplier to replace these
lost trailers. See Appendix A for details on system and process weaknesses.

Recommendations

We recommend the vice president, Network Operations, in coordination with the vice
president, Supply Management:

1. Implement its plans to consolidate leased trailer information into a central database
   to clearly document receipt of the leased trailer assets and to improve tracking and
   tracing of leased trailer inventory.

2. Develop a process to identify trailers that are not being used and ensure unused
   trailers are promptly returned to suppliers to avoid unnecessary lease expenses.

3. Develop an interim tracking system and provide written instructions to plant
   management requiring them to routinely inventory and account for all leased trailers.

4. Require local facilities to have suppliers place numbers that meet the U.S. Postal
   Service’s specifications for numbering on leased trailers for ease of identification and
   tracking through consistent and accurate data.



12
   The Northeast Area scanned over 2,900 unique “99Z” (or temporary) bar codes in March 2014, due to missing
permanent bar codes on the trailers.
13
   This is for FY 2012 to FY 2013.


                                                       3
Missing Leased Trailers in the Northeast Area                              NO-MA-14-004



5. Ensure all leased trailers are equipped with satellite-tracking devices and issue
   policy and provide training on the features and functionality of the satellite-tracking
   system for leased trailers, including functionality of the related web-based
   management system to help track and manage leased trailers.

Management’s Comments

Management agreed with our finding, recommendations, and monetary impact.

In response to recommendation 1, management stated they would use SEAM as the
primary tracking tool for leased trailers. They further stated they would use SEAM to
document receipt, return, and other movements of leased trailers; store information on
trailer characteristics; and improve methods for tracking and tracing leased trailer
inventory, including the use of GPS data and maintaining a log on historical GPS
locations for trailers. The target completion date is January 2015.

In response to recommendation 2, management stated they would implement a process
for identifying trailers that have not moved in 30 days and flag them for return to the
suppliers. The target completion date is March 2015.

Regarding recommendation 3, management stated they would issue a standard
operating procedure to ensure that leased trailer procurement, return, and inventory
processes are consistent nationally. Management also plans to conduct training
workshops on how to use the GPS monitoring application installed in most leased
trailers. The target completion date is November 2014.

In response to recommendation 4, management stated they would develop and use a
consistent numbering system for their leased trailer fleet. As part of this process, each
geographical area will have a unique numbering system and bar code location and
trailer numbers will be standardized. Further, they will ensure the removal of old Postal
Service numbering and bar codes when trailers are returned. The target completion
date is December 2014.

Regarding recommendation 5, management stated that future solicitations for leased
trailers would include requirements that GPS devices be installed on trailers and
maintained by the supplier. In addition, management will coordinate national training
sessions on the SEAM system. The target completion date is January 2015.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.




                                                4
Missing Leased Trailers in the Northeast Area                          NO-MA-14-004



The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                5
Missing Leased Trailers in the Northeast Area                                NO-MA-14-004




                Appendix A: Details on System and Process Weaknesses

Lack of Inventory System and Monitoring Process. The Postal Service has automated
systems designed to account for trailer “movement,” such as the TIMES and SV
systems. However, these are not inventory systems and not reliable sources of leased
trailer inventory. Without an inventory system or a process to periodically inventory the
number of leased trailers, the Postal Service is not always aware of where its trailers
are and how they are being used.

Inconsistent Trailer Labeling and Identification Practices. As noted, we observed
inconsistent trailer numbering practices. Both the TIMES and SV systems rely on
consistent, accurate, and complete trailer labeling and data input to effectively identify
leased trailers. In addition, both the TIMES and SV systems use manual data entry to
record the identifying numbers of trailers and reconcile them to SV bar codes for
scanning purposes. However, manual data entries are often subject to human error and
contribute to the difficulty in identifying and locating trailers. Our analysis of the SV data
indicated many invalid van numbers.

In addition, the Postal Service issues SV bar codes to uniquely identify each asset and
enable tracking of the asset across the network. The SV policy further provides use of
temporary trailer bar codes, referred to as “99Z” codes. The “99Z” bar codes are
designed for one-time use only for drop shipment trailers and other infrequently used
trailers that do not have the permanent "99T" bar codes. We found over 2,900 of the
“99Z” bar codes scanned in the Northeast Area during March 2014. Frequent use of
"99Z" bar codes complicates the ability to locate trailers because a trailer can be listed
under more than one bar code. For example, trailers could be identified by a "99T" bar
code or several "99Z" bar codes.

Satellite Tracking Devices. To improve inventory controls, the Postal Service requires
leasing contractors to install wireless satellite-tracking devices on all trailers. Through a
web-based management information system, the Postal Service can identify idle and
lost trailers by locating installed wireless tracking devices once each day via satellite.
Although the Postal Service receives one free “ping” per day, it generally only uses the
tracking system to locate missing trailers. Presently, the Postal Service has GPS
tracking devices on about half of its leased trailers.




                                                6
Missing Leased Trailers in the Northeast Area                   NO-MA-14-004



                            Appendix B: Management’s Comments




                                                7
Missing Leased Trailers in the Northeast Area       NO-MA-14-004




                                                8
Missing Leased Trailers in the Northeast Area       NO-MA-14-004




                                                9
Missing Leased Trailers in the Northeast Area        NO-MA-14-004




                                                10
